4 •

f

4

;

APPENDIX A

Appendix A

'i

FILED

9

04/20/2021

Bowen Greenwood
CLERK OF THE SUPREME COURT
STATE OF MONTANA

DA 20-0102

Case Number; DA 20-0102

IN THE SUPREME COURT OF THE STATE OF MONTANA
2021 MT 98N

BRIAN D. SMITH,
Petitioner and Appellant,
v.
STATE OF MONTANA,
Respondent and Appellee.

APPEAL FROM:

District Court of the Fourth Judicial District,
In and For the County of Missoula, Cause No. DV-16-698
Honorable Leslie Halligan, Presiding Judge

COUNSEL OF RECORD:
For Appellant:
Brian D. Smith, Self-represented, Deer Lodge, Montana
For Appellee:
Austin Knudsen, Montana Attorney General, Brad Fjeldheim, Assistant
Attorney General, Helena, Montana
Kirsten H. Pabst, Missoula County Attorney, Missoula, Montana

Submitted on Briefs: March 24, 2021
Decided: April 20, 2021
Filed:

\

Justice Ingrid Gustafson delivered the Opinion of the Court.
HI

Pursuant to Section I, Paragraph 3(c), Montana Supreme Court Internal Operating

Rules, this case is decided by memorandum opinion and shall not be cited and does not
serve as precedent. Its case title, cause number, and disposition shall be included in this
Court’s quarterly list of noncitable cases published in the Pacific Reporter and Montana
Reports.
f2

Brian Smith (Smith) appeals from the January 13, 2020 Order Denying Second

Petition for Post-Conviction Relief issued by the Fourth Judicial District Court, Missoula
County. We affirm.
1(3

On January 25, 2012, Smith pleaded guilty to felony aggravated assault. The
*

District Court sentenced Smith to 20 years in the Montana State Prison without the
possibility of parole on May 9,2012. The court entered written judgment on May 21,2012.
On June 1, 2012, he filed a motion to withdraw his guilty plea, which the District Court
denied on July 26, 2012. Smith did not file a timely appeal but filed his first habeas corpus
action on April 24, 2013, challenging the District Court’s jurisdiction and the validity of
his change of plea proceedings. We denied this habeas action as it was without merit on
June 5, 2013. Smith v. Frink, No. OP 13-0278, 311 P.3d 444 (Mont. June 5, 2013). On
June 11, 2013, Smith filed a petition for out-of-time appeal, in which he sought to attack
his conviction through appeal of the denial of his motion to withdraw his guilty plea. On
July 10, 2013, we denied Smith’s petition for an out-of-time appeal, determining he had
not demonstrated record-based claims necessary for direct appeal and that his appeal was
2

“very untimely.” State v. Smith, No. DA 13-0399, Order (Mont. July 10, 2013). On
April 4, 2016, Smith again filed a petition for habeas corpus attacking his conviction, this
time asserting it to be void as he did not receive a predetermination hearing before the
prosecution commenced. On April 12, 2016, we again denied Smith’s habeas petition,
concluding the District Court did have subject matter jurisdiction to proceed with his
prosecution and his claims were barred by principles of claim preclusion. Smith v. Fender,
No. OP 16-0205, 384 Mont. 551, 384 P.3d 40 (Apr. 12,2016). On August 16, 2016, Smith
filed his first postconviction relief (PCR) petition, which was denied by the District Court.
Smith appealed this denial. We affirmed the denial of Smith’s PCR petition as time barred
and concluded he did not satisfy the newly discovered evidence requirement to overcome
the statutory time bar. Smith v. State, No. DA 17-0146,2018 MT 115N, 2018 Mont. LEXIS
150. On June 30, 2017, Smith filed a notice of appeal of the district court’s June 15, 2017
order denying his second motion to withdraw his guilty plea as time-barred, but his appeal
was ultimately dismissed for his failure to file an opening brief. State v. Smith, No. DA
17-0385, Order (Mont. Feb. 14,2018).
1f4

Smith then embarked on filing two additional writs for habeas corpus, raising

challenges to his sentence and attorney abandonment, both of which we denied. See Smith
v; McTighe, No. OP 18-0532, 393 Mont. 542 (Sept. 25,' 2018); Smith v. McTighe,
No. OP 19-0503, 397 Mont. 555, 449 P.3d 789 (Sept. 17, 2019). In our September 17,
2019 order, we also prohibited Smith from making any further direct filings with this Court
without first obtaining leave to do so.
3

15

On January 13, 2020, Smith filed his second PCR petition in the District Court,

which is the subject of this appeal, again raising issues of attorney abandonment. The
District Court denied this petition without hearing. In his. second PCR petition, Smith
asserted that his failure to receive an order issued by the District Court in DC 11-161 on
January 18, 2013, frustrated his ability to appeal his conviction and is evidence of his
attorney’s malfeasance or abandonment. The District Court concluded these arguments
lacked merit. The District Court noted that Smith had until July 2012, to appeal his
conviction and judgment and that failure to receive the order, which was not issued until
approximately 6 months after his appeal time ran, could not have thwarted him from filing
an appeal. Even had he timely received the order, it would have made no difference in his
ability to file an appeal 6 months earlier. Next, Smith argued attorney ineffectiveness or
malpractice when a separate attorney he consulted with, Ed Sheehy (Sheehy), post-trial
advised Smith via letter of July 10, 2012, he did not have a good faith basis to appeal and
would need to instead pursue postconviction relief in his criminal case. Smith asserted this
purportedly bad advice caused him to lose the right to contest his conviction and/or
sentence through appeal. The District Court again did not find this argument to have merit,
concluding that to the extent it supported his theory of attorney abandonment, his time to
assert this theory as a basis for relief had long passed as it could have been raised in his
first PCR petition.

4

,1 -

16

We review a district court’s denial of a PCR petition to determine whether the

court’s findings of fact are clearly erroneous and whether its conclusions of law are correct.
State v. Evert, 2007 MT 30, U 12, 336 Mont 36, 152 P.3d 713.

V

From our review of the record, we do not find the District Court’s findings to be

clearly erroneous or its conclusions of law incorrect. The facts supporting Smith’s claims
asserted in his second PCR petition occurred within one year of his conviction and could
have been raised in a timely PCR petition. Smith had one-year from the date his conviction
became final to bring a timely PCR petition. See § 46-21-102(1), MCA.

Smith’s

conviction became final in July 2012. As such, he had to bring any PCR petition in
i

July 2013. He did not bring his first PCR petition for over four years post finality of his
conviction and the PCR petition at issue here for over seven years post finality of his
conviction. Further, “[t]he court shall dismiss a second or subsequent petition by a person
who has filed an original petition unless the second or subsequent petition raises grounds
for relief that could not reasonably have been raised in the original or an amended original
petition.” Section 46-21-105(l)(b), MCA. Smith failed to raise any issue in his second
PCR petition that could not have reasonably been raised in his first PCR petition, thus the
District Court did not abuse its discretion by dismissing his second PCR petition without
holding a hearing. The District Court and this Court have carefully considered and
analyzed Smith’s filings to date and we agree with the District Court that his attempt at
relief through his second PCR petition is no longer time well spent by the District Court or
by this Court.
5

\«

T[8

We have determined to decide this case pursuant to Section I, Paragraph 3(c) of our

Internal Operating Rules, which provides for memorandum opinions. In the opinion of the
Court, the case presents a question controlled by settled law or by the clear application of
applicable standards of review.
T[9

Affirmed.
/S/ INGRID GUSTAFSON

We concur:

/s/ laurie McKinnon
/S/BETH BAKER
IS/ DIRK M. SANDEFUR
IS/ JIM RICE

6

APPENDIX 8
f

l

i

t

APPENDIX B

1
2
3

Leslie Halligan, District Court Judge
Fourth Judicial District
Missoula County Courthouse
200 West Broadway Street
Missoula, MT 59802-4292
(406) 258-4771

FILED JAN 13 ?m
SltfRLEY E. FAUST, CLERK
B'

4

Deput/

5
6
7

MONTANA FOURTH JUDICIAL DISTRICT COURT, MISSOULA COUNTY
8

BRIAN DOUGLAS SMITH
9

Petitioner,
10
11
12

v.
STATE OF MONTANA,
Respondent.

Dept. No. 1
Cause No. DV-16-698
ORDER DENYING SECOND
PETITION FOR POST-CONVICTION
RELIEF

13
14

This matter comes before the Court on Petitioner Brian Douglas

15

Smith’s [Second] Verified Petition for Postconviction Relief (“Petition”), filed

16

pro se. The Clerk of the District Court received the Petition on January 2,

17

2020, and it was accompanied by a Motion to Proceed without Paying Filing

18

Fee. Because the Court hereby deems the Petition to be properly filed within

19

this pre-existing cause number, there was no need for a fee. The Court
20

21

instructs the Clerk to file both documents in the register of actions for this

22

cause number. The Court has reviewed the Petition and finds it appropriate

23

to deny it without further consideration.
ORDER DENYING SECOND PETITION
FOR POST-CONVICTION RELIEF

1

^2.0

1

The present Petition mainly focuses on Smith’s alleged failure to

2

receive an Order issued by the Court in Cause No. DC-11-161 (Smith’s

3

criminal case leading to his present conviction and incarceration) on January

4

18, 2013. In that Order, the Court (Hon. Ed McLean) answered a letter from

5
6

Smith asking for additional pages of the transcript from the sentencing
hearing. The Court’s answer was negative because the Court had already

7

provided him copies of the operative portions of,that hearing, where the Court
8
9

imposed his sentence and the conditions thereon. Smith had earlier pled

10

guilty to one count of aggravated assault, as charged in the Information

11

against him.

12

frustrated his ability to appeal his conviction and is evidence of his attorney’s

13

The Petition argues that Smith’s failure to receive that Order

malfeasance or negligence that also frustrated his ability to appeal his

14

conviction. Both of these arguments lack merit.
15
16
17

Smith had until approximately July 21, 2012 to appeal his conviction
and judgment. The Order that he complains of not receiving was not issued

18

until January 18, 2013, approximately six months after that deadline.

19

Because the deadline had long passed, his timely
receipt of that Order would
r

20

have made no difference in his ability to appeal. Thus, even had his attorney

21

provided the Order to him, he still would not have been able to appeal then.

22

Smith has not demonstrated how his timely receipt of that Order would have
23
ORDER DENYING SECOND PETITION
FOR POST-CONVICTION RELIEF

2

1
2

made a difference in his various and hypothetical legal actions following his
conviction.

3

Further, the final piece of evidence on which he relies is a letter to him

4

dated July 12, 2012 in which the Office of the State Public Defender explains

5
6

his lack of appellate options. To the extent that this may support his theory
of “attorney abandonment,” his time to assert this theory as a basis of relief

7

has long passed. Smith gives the Court no reason to conclude that he did
8

9

not receive the letter at the time or that he only learned of it later. Thus, he

10

could have raised this issue in his [First] Verified Petition for Post-Conviction

11

Relief filed under this cause number. Pursuant to Mont. Code Ann. § 46-21-

12

105(1 )(b), the Court is therefore compelled to dismiss the present Petition.

13

The Court has already carefully considered and thoughtfully analyzed

14

the merits of Smith’s 2017 Motion to Withdraw Guilty Plea in DC-11-161 and
15
16
17

his [First] Verified Petition for Post-Conviction Relief filed under this cause
number in August 2016. Smith took the Court’s denials of those requests to

18

the Montana Supreme Court and did not prevail. The record in these cases

19

evidences other attempts for relief through the federal court system, all which

20

failed addition to these defeats. Smith’s latest attempt for relief through his

21

Petition is no longer time well spent by either him or the Court. The Court

22

has carefully considered all that Smith has had to say on the subject of his
23
ORDER DENYING SECOND PETITION
FOR POST-CONVICTION RELIEF

3

1

treatment under the law, including his new theories, and still finds that he is

2

not entitled to the relief that he is seeking here. Thus, the Court denies the

3

Petition.

4

DATED this 13th day of January, 2020.

5
6

IL

lAesli^Halligan
District Court Judge

7
8

D

y

9
10
11
cc:
12

Brian D. Smith, pro se, AO# 3009410, Conley Lake Rd, Deer Lodge, MT 59722
Missoula County Attorney’s Office

13
14
15
16
17
18
19
20
21
22
23
ORDER DENYING SECOND PETITION
FOR POST-CONVICTION RELIEF

4

FILED
09/25/2018
TcC Smith

IN THE SUPREME COURT OF THE STATE OF MONTANA

CORK OF THE SUPREME COURt
STATE OF MONTANA

Case Number OP 18-0532

^

OP 18-0532

SEP 25 2018

BRIAN
* D. SMITH,3

'EcC Smith

Petitioner,

CLERK OF THE SUPREME COURT
STATE OF MONTANA

v.

ORDER

PAT McTIGHE, Warden,
Respondent.

Representing himself, Brian D. Smith has filed a petition for a writ of habeas corpus,
arguing that his sentence is “facially invalid and illegal,” because it is based on “false
information” and lacks specific reasons for a parole restriction.

1

In 2012, Smith pleaded guilty to felony aggravated assault in exchange for the
prosecution’s agreement to dismiss a charge of felony assault with a weapon. On May 9,
2012, the Missoula County District Court sentenced Smith to Montana State Prison for a
twenty-year term with no eligibility for parole. Smith filed a motion to withdraw his plea,
which the District Court denied on July 25,2012. Smith did not seek a timely appeal with
this Court, and we later denied his petition for an out-of-time appeal in July 2013. State v.
Smith, No. DA 13-0399, Order (Mont. Jul. 10, 2013).
In 2016, Smith sought postconviction relief in the District Court by filing a petition.
The court in its denial noted the petition’s lintimeliness yet addressed the merits. Smith
appealed the court’s decision, and this Court affirmed in an unpublished opinion. Smith v.
State, No. DA 17-0146,2018 MT 115N,

Mont.

.,416P.3d 1054 (table).

Smith raises several issues in his petition. He asserts that the reasons for his parole
eligibility restriction are not valid in light of § 46-18-202(2), MCA. He maintains that his
sentence violates this statutory section language in that “the judgment must contain a
statement of the reasons for the restriction” Section 46-18-202(2), MCA (emphasis added

to the original language). Smith contends that the .written reasons for the court’s judgment
are not specific, do not contain factual evidence, and conflict with § 46-18-223(3), MCA.
, Smith also asserts that,the procedural bar and res judicata, do pot apply to this
petition. He argues several tangential issues about what the pres.entence investigation

\

i
!

report (PSI) contained, what the presiding Judge stated at sentencing, and that Smith was
willing to go to trial on the second charge, which was not encouraged by his counsel. Citing
to Montana case law, Smith argues materially false information is the basis of his sentence,
which therefore results in an illegal sentence. See Bauer v. State, 1999 MT 185,

20,

295 Mont. 306, 983 P.2d 955 (“a defendant is protected from a sentence predicated on
misinformation about"that defendant’s criminal history.”). Smith" requests this Court vacate
and remand for resentencing pursuant to Lott v. State, 2006 MT 279, 334 Mont. 270,
150 P.3d 337.
Smith; does not have a facially invalid and illegal sentence. While Smith correctly
refers to Montana’s statutes, and his written judgment, he is mistaken that the court’s
reasons are inadequate. The court included two reasons for;the sentence when it imposed
theparole ineligibility restriction:
1.
2.

The sentence takes into account the violent nature of the crimeand the
injuries to the victim and her family.
It is too great of a risk to release the Defendant into the community.

First, the court’s reasons do not conflict with § 46-18-223(3), MCA, because that statute
does not apply to Smith’s sentencing. Section 46-18-223, MCA, deals with a hearing on
an application to exceptions for mandatory minimum sentences. Second, Montana’s
statutes do not require factual findings or any more specificity. Section 46-18-202(2),
MCA, requires a sentencing judge to include the reasons for the parole restriction in
writing.
The District Court was within its authority and gave written reasons for the sentence
imposed. Wc have held that § 46-18-202(2), MCA, authorizes a sentencing court to impose
parole eligibility restrictions when imposing a prison term that exceeds one yoax. State v.

!

Kirkbride, 2008 MT 178,16-21, 343 Mont. 409, 185 P.3d 340,. We have further held

i

2

that sentencing courts are afforded broad discretion in sentencing and have “upheld
restrictibris based at least in part upon the Heinous nature of the crime:

State v.

Christianson, 1999 MT 156, *H 31, 37, 295 Mont. 100, 983 P.2d 909 referring to toe v.
Heit, 242 Mont. 488, 791 P.2d 1379' (1990). ;

v

‘

During the sentencing hearing, the District Court stated, as put forth in Smith’s copy
of the attached transcript:
And, as [the victim’s] sister pointed out, you didn’t have just one victim.
You shattered the whole family - mother, sister, as well as [the victim].
You didn’t just hurt her. You tried to kill her, and in the process, you cut her
throat, tore an ear off of her head, and then, gave her a couple different skull
fractures, along with several lacerations, that required surgery, and much
surgical stitches to put her head back together.
Tr. at 35. The District Court detailed the severity of Smith’s crime during this hearing and
complied with the statutory language by including sufficient reasons for the parole
restriction in the written judgment.
Smith is incorrect in his assertion that the procedural bar and res judicata, also
■known as claim preclusion, do not apply here. The cases to which he cites for support of
his issues were all direct appeals, not petitions, such as his writ. In Lott, there was a change
in Montana’s law after Lott’s sentence, which directly affected Petitioner Lott and his
double jeopardy claims. Lott,

20-23. We do not have that situation here, and we have

previously explained such to Smith in prior proceedings.1 Smith is precluded from raising
these issues related to his underlying proceeding, the PSI, and sentencing in a petition for
a Writ of habeas corpus. His supporting documents reference an intention to file an appeal,

1 See Smith v. Frink, No. OP 13-0278, Order denying his petition for habeas corpus relief
challenging the court’s jurisdiction and presiding judge (Mont. Jun. 5, 2013); State v. Smith,
No. DA 13-0399, Order denying his petition for an out-of-time appeal because it was untimely and
any . ineffectiveness of assistance of counsel claims should have been raised in a petition for
postconviction relief (Mont. Jul. 10,2013); and Smith v. Fencer, No. OP 16-0205, Order denying
petition for a writ of habeas corpus because the District Court hdd subject matter jurisdiction and
his claims were barred by principles of claim preclusion (Mont Apr. 12,2016).
3

Exhibit “F”

1

2
3

The Honorable Leslie Halligan
DISTRICT COURT JUDGE
Dept. No. 1
Fourth Judicial District
Missoula County Courthouse
Missoula, Montana 59802

{(

r ,
V

4

-'V-

ij

5
.6

MONTANA FOURTH JUDICIAL DISTRICT COURT, MISSOULA COUNTY

7

BRIAN DOUGLAS SMITH
8

Petitioner,

*

Dept. No. 1

*

Cause No. DV-16-698

9

li

*

-vs-

10

*

STATE OF MONTANA,

12

*

*

*

*

ORDER

Respondent.

*

★

★

★

*

13
14

On motion of the State of Montana and good cause appearing

15

IT IS HEREBY ORDERED

16

1. Defense counsel, the attorney who represented Petitioner in the

17

proceedings resulting in his criminal conviction and who is now
18
19

charged by Petitioner with ineffective assistance as counsel, is

20

hereby ordered to respond by affidavit or other sworn testimony to

21

the charges of ineffective assistance of counsel respecting

22
23

representation.
2. Defense counsel shall be immune from proceedings before the
Montana Commission on Practice and from civil or other actions of
MOTION FOR ORDER PRESERVING COUNSEL FROM
DISCIPLINARY OR MALPRACTICE CLAIMS AND ORDER

1

any kind for alleged malpractice in so responding to the allegations

2

of Petitioner insofar as said response related to the allegations in the

3

petition.

4
5
6

DATED this

day of September, 2016.

7
8

\

9
10
li

cc:

DISTRICT COURT JUDGE

Suzy Boylan, County Attorney’s Office
Missoula OPD

12
13
14
15
16
i

17
18
19 '
20
21
22
23

MOTION FOR ORDER PRESERVING COUNSEL FROM
DISCIPLINARY OR MALPRACTICE CLAIMS AND ORDER

./ V

lr\\

r-i
l

Ed McLean, District Judge
Department No. 1
Fourth Judicial District
Missou a County Courthouse
Missoula, Montana 59802
Telephone: (406) 258-4771

l
2

I

*
V;ic< -

i£

FILED JUL 2 6 2012

3

SHIRLEY E. EAU8T, CLERK

4

r.

By.

r.<

I:

5

MONTANA FOURTH JUDICIAL DISTRICT COURT, MISSOULA COUNTY

6
7

STATE OF MONTANA,

f

) DEPT. 1

V;

!•••

)

8

Plaintiff,

9

-V$-

10

BRIAN DOUGLAS SMITH.

11

Defendant.

12

t

) CAUSE NO. DC-11-161
j OPINION AND ORDER

II

V

I
I

)
)
)

{

v
i

c

r

13

r.

pending before the Court, is Defendant’s Motion to Withdraw a Plea of

14

15

Guilty Under Mont. Code. Ann. 6 46-16-105 based on the allegation that his

16

public defender mislead him by promising him he would be able to cross-

17

i*

r

I

| exam the witnesses at his sentencing hearing to challenge untrue testimony t

16 &

19 I and had he known he would not be allowed to cross-exam the witnesses, he

[v

pt-

i:

20
21

would ;never have agreed to plead guilty.
Defendant has failed to cite to or provide any evidence to support that

22

23

any of the witness impact statements made at the sentencing hearing were

24

untruthful, and such untruths had a significant impact on the mandatory

25

sentence he received of 20 years without the possibility of parole. Had the

26
i

:
;

)
*

l

l
f

I:

$
&
£
fi

V

r
OPINION AND ORDER AWARDING ATTORNEY' 8 FEES AND COSTS

Paga 1

!

.1

I

*»

£

!

j Defendant wanted to challenge the truthfulness of the testimony of the
1

witnesses against him, he should have proceeded to trial. Instead, Defendant

2

3

clearly acknowledged at both the change of plea hearing and the sentencing

:•[

K
£•
t.

4

hearing that no promises were made to entice him to change his plea to guilty

5

and that he was satisfied with the services of his attorney.

6

IT IS HEREBY ORDERED that Defendant’s Motion to Withdraw a Plea

7
8

>

SO ORDERED and DATED this

f:

of July, 2012.

i.
l

10

i

li
12

l:

ED McLean, District Judge

13

15

P

of Guilty Under Mont. Code. Ann. S 46-16-105 is DENIED.

9

14

;;

cc:

Brian Douglas Smith
Susan Boylan, Esq.
Katie Green, Esq.

'

A

V
[•:

le

fi­

17

1

r

18
V

19
f

20

V

21
22
23
24
I

25

i

!

k

26

I

5

I>

i

\

OPINION AND ORDER AWARDING ATTORNEY' 8 FEES AND COST8

P*g® 2

*•
5:V

Additional material
from this filing is
available in the
Clerk's Office.

